Table of Contents
Return
to the USDOJ/OIG Home Page
Follow-up Inspection of the Immigration and Naturalization Service Document Fraud Records Corrections
Report Number I-2000-021
TABLE OF CONTENTS
MEMO FROM GLENN A. FINE, ACTING INSPECTOR GENERAL
INTRODUCTION
BACKGROUND
Scope and Methodology
RESULTS OF THE INSPECTION
The flagging procedures are not       complete
Failure to remove NAILS records
Additional information on aliens
RECOMMENDATIONS
APPENDIX I:  BOILERPLATE LANGUAGE
APPENDIX II:  INS'S RESPONSE TO DRAFT REPORT
APPENDIX III: OFFICE OF THE INSPECTOR GENERAL'S
ANALYSIS OF MANAGEMENT'S RESPONSE